          Evaluation Report



    Impact of Increases in State
Unemployment Rates on the Social
Security Administration’s Disability
            Programs




        A-07-12-11209 | July 2013
MEMORANDUM


Date:      July 16, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Impact of Increases in State Unemployment Rates on the Social Security Administration’s
           Disability Programs (A-07-12-11209)

           The attached final report presents the results of our review. Our objective was to evaluate the
           impact increases in State unemployment rates had on the Social Security Administration’s
           disability programs.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Impact of Increases in State Unemployment Rates on the
Social Security Administration’s Disability Programs
A-07-12-11209
July 2013                                                                  Office of Audit Report Summary

Objective                             Our Findings

To evaluate the impact increases      As unemployment rates increased, the number of disability applications
in State unemployment rates had       for claimants with a work history also increased. Specifically, from
on the Social Security                CYs 2007 to 2011, the number of Title II and Title XVI disability
Administration’s (SSA) disability     applications for claimants with a work history increased 27 percent
programs.                             nationally. At the same time, allowance rates for these applications
                                      declined.
Background
                                      •   In CY 2011, Title II and Title XVI disability claimants were waiting
SSA has recently experienced a            longer after stopping work to file for disability than they were
significant increase in initial           waiting in CY 2007. This trend was consistent in the 10 States with
applications for Title II and             the highest increases in unemployment rates from CYs 2007 to 2011.
Title XVI disability benefits. In
addition, the unemployment rate       •   The costs for processing Title II and Title XVI disability applications
in the United States has increased        for claimants with a work history increased more than $26 million
substantially.                            between CYs 2007 and 2011. Costs also increased in all 10 States
                                          with the highest increases in unemployment rates from CYs 2007 to
To review the impact of the most          2011.
recent increases in unemployment
rates on Title II and Title XVI       •   Other factors, such as the aging of the baby-boomer population,
disability applications, we               increases in the size of the labor force, and changes in Federal
identified the 10 States with the         disability policy also contributed to increases in the number of
highest percentage increases in           disability applications. However, identifying the effect of these and
unemployment rates from                   any other factors on increases in Title II and Title XVI disability
Calendar Years (CY) 2007 to               applications was beyond the scope of this review.
2011. We analyzed Title II and
Title XVI disability applications     Finally, according to SSA’s reports, the number of Title II disabled
and allowance rates as well as        worker beneficiaries increased by 21 percent from CYs 2007 to 2011.
other aspects of SSA’s disability     Additionally, the number of Title XVI recipients aged 18 to 64 increased
programs nationally and in            13 percent from CYs 2007 to 2011.
Alabama, Arizona, California,
Colorado, Florida, Hawaii, Idaho,
Nevada, North Carolina, and Utah
to evaluate the impact of increases
in unemployment rates. We
limited our analysis to
applications with an indication the
claimant had a work history
because we believed these
claimants would be most affected
by changes in unemployment
rates.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................4
     Disability Applications ..............................................................................................................5
     Allowance Rates ........................................................................................................................6
     Length of Time from Stopping Work to Filing for Disability ...................................................7
     Disability Claims Processing Costs ...........................................................................................9
     Disability Claims Backlogs........................................................................................................9
     Other Factors Affecting Disability Applications .....................................................................10
     Title II Disability Beneficiaries and Title XVI Recipients ......................................................13
Conclusions ....................................................................................................................................16
Agency Comments .........................................................................................................................16
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – State Unemployment Rates, Calendar Years 2007 and 2011 ............................. B-1
Appendix C – Disability Applications for Claimants with a Work History, Calendar Years 2007
           and 2011 ................................................................................................................. C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)
ABBREVIATIONS
BLS                  Bureau of Labor Statistics

CBO                  Congressional Budget Office

C.F.R.               Code of Federal Regulations

CY                   Calendar Year

DDS                  Disability Determination Services

FY                   Fiscal Year

OIG                  Office of the Inspector General

SSA                  Social Security Administration

U.S.C.               United States Code




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)
OBJECTIVE
The objective of this review was to evaluate the impact increases in State unemployment rates
had on the Social Security Administration’s (SSA) disability programs.

BACKGROUND
SSA provides disability benefits under Titles II and XVI of the Social Security Act. Under
Title II, SSA provides disability benefits to disabled workers and their families, certain disabled
widow(er)s, and disabled adult children of workers who have died or retired. 1 Under Title XVI,
SSA provides disability payments to adults and children determined to be eligible on the basis of
income and resources. 2

To receive benefits under either program, an individual must file an application with SSA. Once
an individual files an application, an SSA field office determines whether the claimant meets the
non-disability criteria for benefits. 3 If the non-disability criteria are met, the field office
generally forwards the claim to the disability determination services (DDS) in the State or other
office with jurisdiction to make a disability determination. 4 DDSs are located in each of the
50 States plus the District of Columbia and Puerto Rico.

From Fiscal Years (FY) 2007 to 2011, initial Title II disabled worker claims increased
approximately 34 percent while initial Title XVI disability claims increased approximately
18 percent (see Table 1). In addition, the unemployment rate in the United States increased
substantially—rising from 4.6 percent in Calendar Year (CY) 2007 to 8.9 percent in CY 2011. 5




1
 Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq. Under certain circumstances, disabled divorced spouses
of deceased workers are also entitled to benefits.
2
    Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
3
  For Title II benefits, the non-disability criteria include such factors as the worker having sufficient earnings to
acquire insured status. 20 C.F.R. §§ 404.110 through 404.133 and 20 C.F.R. § 404.315. For Title XVI payments,
the non-disability criteria include such factors as citizenship, income, and resources. 20 C.F.R. § 416.202 and
20 C.F.R. §§ 416.1100 through 416.1266.
4
 At the DDS, a disability examiner, using SSA’s regulations, policies, and procedures, obtains the relevant medical
evidence. The examiner then evaluates the case and determines whether the claimant is disabled under the Agency’s
criteria. As needed, the disability examiner will consult with a physician and/or psychologist. Social Security Act
§§ 221(a)(1) and 1633(a), 42 U.S.C. §§ 421(a)(1) and 1383b(a). See also 20 C.F.R. §§ 404.1601 et seq. and
416.1001 et seq.
5
 As of March 2013, the unemployment rate was 7.6 percent. We obtained unemployment rates from the
Department of Labor’s Bureau of Labor Statistics (BLS), http://www.bls.gov/.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                            1
                   Table 1: Unemployment Rates and Disability Applications Received
                                      Title II Disabled Worker                    Title XVI Disability
                                      Applications (Including                    Applications (Including
                   United States   Concurrent Title XVI Disability             Concurrent Title II Disabled
                  Unemployment              Applications) 7                      Worker Applications)7
     FY
                  Rate (Based on
                       CY) 6                             Percentage                                Percentage
                                   Applications                             Applications
                                                       Increase Since                            Increase Since
                                    Received                                 Received
                                                          FY 2007                                   FY 2007
    2007               4.6              2,334,600                                2,379,800
    2008               5.8              2,436,800              4                 2,420,500               2
    2009               9.3              2,902,000             24                 2,741,900              15
    2010               9.6              3,095,200             33                 2,830,500              19
    2011               8.9              3,124,400             34                 2,806,700              18

According to then Commissioner of Social Security, Michael Astrue, since the beginning of the
most recent recession in 2007 through May 2012, SSA received 600,000 more disability
applications annually than the Agency anticipated based on actuarial projections. This occurred
because “. . . economically desperate people apply [for disability benefits].” However,
Commissioner Astrue asserted that SSA applied the same statutory standards to process
applications as it had before the recession and did not “move the standard” by allowing a higher
percentage of applications. 8

The increases in unemployment rates and disability applications gained the attention of the
Federal government, media, and the public. For example, the Congressional Budget Office
(CBO) reported, “Many people who have been out of the labor force for extended periods find it
difficult to return to work, and new beneficiaries rarely leave the [Title II disability] program to
return to work simply because the economy has improved.” 9 Additionally, in a letter to the


6
    See note 5.
7
  We obtained the number of applications from SSA’s Annual Statistical Supplement to the Social Security Bulletin
for 2008 through 2012, which cover FYs 2007 through 2011 (Tables 2.F5 and 2.F6). These include all applications
received by field offices, including technically denied applications that were never submitted to a DDS. The report
does not provide the specific number of Title II applications from disabled widow(er)s and disabled adult children.
8
  The Social Security Administration: Is it Meeting its Responsibilities to Save Taxpayer Dollars and Serve the
Public?: Hearing before the Senate Finance Committee, 112th Cong. 4, 8 (2012) (Oral statement and testimony of
Michael Astrue, Commissioner of the Social Security Administration)(located on LEXIS, as official Committee
transcript was not available).
9
 CBO cited in Chris Casteel, Sen. Tom Coburn Worries Disability Program Being Used for Unemployment
Benefits, The Oklahoman (May 30, 2011), http://newsok.com/sen.-tom-coburn-worries-disability-program-being-
used-for-unemployment-benefits/article/3572701#ixzz1NwChUgdU.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                          2
Inspector General, Senators Tom Coburn and Orrin Hatch stated, “Given the looming collapse of
[the Title II disability program], it is imperative that disability claims are properly examined to
ensure that only those who are lawfully entitled to benefits receive them.” The Senators also
stated, “Individuals cannot be allowed to exploit [the Title II disability program], transforming it
into a supplemental source of unemployment income with enormous and crippling costs to
taxpayers.” 10

Over the past 30 years, private institutions and Federal agencies, such as SSA, have conducted
empirical studies examining the reasons for fluctuations in disability application rates over time
and among States. 11 These studies have shown, in general, that during times of economic
recessions, applications for disability benefits tend to increase.

To review the impact of the most recent increases in unemployment rates on Title II and
Title XVI disability applications, we identified the unemployment rates for each State and the
District of Columbia from CYs 2007 to 2011. All 50 States and the District of Columbia had
increases in unemployment rates during this period. Specifically, the unemployment rate for the
United States rose from 4.6 percent in CY 2007 to 8.9 percent in CY 2011—a 93-percent
increase. 12 For our review, we identified the 10 States with the highest percentage increases in
unemployment rates (see Figure 1). For example, Idaho had a 200-percent increase in
unemployment rates, from 2.9 percent in CY 2007 to 8.7 percent in CY 2011.




10
  Letter dated May 20, 2011 to Patrick O’Carroll, Jr., Inspector General for SSA, from Senators Tom Coburn and
Orrin G. Hatch.
11
  For example, see Kalman Rupp, Factors Affecting Initial Disability Allowance Rates for the Disability Insurance
and Supplemental Security Income Programs: The Role of the Demographic and Diagnostic Composition of
Applicants and Local Labor Market Conditions, Social Security Bulletin, Vol. 72, No. 4, p. 11, November 2012, and
Norma B. Coe, Kelly Haverstick, Alicia H. Munnell, and Anthony Webb, What Explains State Variation in SSDI
Application Rates? (Center for Retirement Research at Boston College Working Paper No. 2011-23),
December 2011.
12
     See Appendix B for the unemployment rates in all 50 States and the District of Columbia.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                     3
         Figure 1: States with the Highest Percentage Increases in Unemployment Rates 13




Note:      The United States’ unemployment rate rose from 4.6 percent in CY 2007 to 8.9 percent in CY 2011.

We analyzed Title II and Title XVI disability applications, allowance rates, and other aspects of
SSA’s disability programs nationally and in these 10 States to evaluate the impact of increases in
unemployment rates. We reviewed 10.9 million Title II and Title XVI disability applications
filed in the United States during CYs 2007 through 2011 for claimants who indicated they had a
work history on their applications. 14 We limited our analysis to applications with an indication
the claimant had a work history because we believed these claimants would be most affected by
changes in unemployment rates.

RESULTS OF REVIEW
As unemployment rates increased, the number of disability applications for claimants with a
work history also increased. Specifically, from CYs 2007 to 2011, the number of Title II and
Title XVI disability applications for claimants with a work history increased 27 percent
nationally. At the same time, allowance rates for these applications declined. In addition,




13
     See note 5.
14
  Specifically, we obtained a data extract from SSA’s Disability Management Information System of disability
applications filed by more than 15.2 million individuals during CYs 2007 through 2011. People who filed
concurrent Title II and Title XVI disability claims were only counted once. We limited our review to the
10.9 million applications where the claimant indicated a stop work date in question 4C of the Disability Report –
Adult (Form SSA-3368-BK). Question 4C asked “When did you stop working?” Of the 4.3 million individuals
without a stop work date, we estimate more than half were applications for Title II disabled adult child or Title XVI
child benefits and the remaining were applications for Title II or Title XVI claimants who never worked or had not
stopped working at the time of the application. See Appendix A for a detailed discussion of the scope and
methodology of our review.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                        4
•    In CY 2011, Title II and Title XVI disability claimants with a work history were waiting
     longer after stopping work to file for disability than they were waiting in CY 2007. This
     trend was consistent in the 10 States with the highest increases in unemployment rates from
     CYs 2007 to 2011.

•    The costs for processing Title II and Title XVI disability applications for claimants with a
     work history increased more than $26 million between CYs 2007 and 2011. Costs also
     increased in all 10 States with the highest increases in unemployment rates from CYs 2007 to
     2011.

•    Other factors, such as the aging baby-boomer population, increases in the size of the labor
     force, and changes in Federal disability policy, also contributed to increases in the numbers
     of disability applications. However, identifying the effect of these and any other factors on
     increases in Title II and Title XVI disability applications was beyond the scope of this
     review.

Finally, according to SSA’s reports, the number of Title II disabled worker beneficiaries
increased by 21 percent from CYs 2007 to 2011. Additionally, the number of Title XVI
recipients aged 18 to 64 increased 13 percent from CYs 2007 to 2011.

Disability Applications
The increase in unemployment                 Table 2: Title II and Title XVI Disability Applications
rates appears to have impacted the             for Claimants with a Work History in States with
number of disability applications.                Highest Increases in Unemployment Rates 15
From CYs 2007 through 2011, all                                                         Percentage
                                                  State           2007      2011
50 States and the District of                                                            Increase
Columbia had increases in Title II          Utah                         7,948    12,121                53
and Title XVI disability                    Florida                    111,220   162,675                46
applications for claimants with a           Colorado                    21,535    29,822                38
work history—increasing                     Nevada                      13,317    18,190                37
27 percent nationwide (see                  Hawaii                       5,322     7,257                36
Table 2). Further, the 10 States            Arizona                     30,589    41,164                35
with the highest increases in               Idaho                        7,984    10,496                31
unemployment rates had increases            North Carolina              67,093    87,132                30
in disability application rates             Alabama                     43,466    54,860                26
ranging from 24 to 53 percent.              California                 185,314   230,105                24
                                            United States            1,874,404 2,378,202                27




15
  We obtained the number of disability applications for claimants with a work history from a data extract of SSA’s
Disability Management Information System (see Appendix A). These included applications received by field
offices, including technically denied applications that were never submitted to a DDS. See Appendix C for the
number of disability applications for all 50 States and the District of Columbia.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                         5
We could not determine from our data analysis the extent to which the increase in Title II and
Title XVI disability applications was directly related to the increase in unemployment rates.
Specifically, we could not determine how many individuals would have applied for disability
despite the change in unemployment rates.

Allowance Rates
The rate at which SSA granted initial Title II and Title XVI disability applications decreased
from approximately 36 percent in CY 2007 to 33 percent in CY 2011. 16 According to
Commissioner Astrue, “. . . the vast majority of [applications] get rejected because [SSA]
adhere[s] to the statutory standard.” 17

Nationwide, we observed a slight decline in allowance rates for Title II and Title XVI disability
applications for claimants with a work history—from 32 percent in CY 2007 to 31 percent in
CY 2011. 18 Further, the allowance rate decreased in 8 of the 10 States with the highest increases
in unemployment rates (see Figure 2). 19 The allowance rate increases in the remaining two
States were nominal, and their CY 2011 allowance rates were consistent with the national
average of 31 percent. Therefore, the increases in unemployment rates and disability
applications for the 10 States did not appear to have caused a larger percentage of claimants to be
granted benefits based on their initial application. 20




16
  We obtained the allowance rates from SSA’s custom DDS Performance Management Report: Initial Claims
Allowance Rates for CYs 2007 and 2011.
17
  The Social Security Administration: Is it Meeting its Responsibilities to Save Taxpayer Dollars and Serve the
Public?: supra note 8, at p. 8.
18
  We calculated the initial allowance rates for claimants with a work history using a data extract from SSA’s
Disability Management Information System (see Appendix A).
19
   SSA has also reported that increases in State unemployment rates were generally associated with decreases in
allowance rates. Kalman Rupp, Factors Affecting Initial Disability Allowance Rates for the Disability Insurance
and Supplemental Security Income Programs: The Role of the Demographic and Diagnostic Composition of
Applicants and Local Labor Market Conditions, Social Security Bulletin, Vol. 72, No. 4, November 2012, p. 32.
20
  We acknowledge that some applications denied at the initial DDS level will be allowed on appeal, especially at
the Office of Disability Adjudication and Review hearing level. However, the allowance rate at the hearing level
decreased from 62 percent in FY 2007 to 56 percent in FY 2011—according to SSA’s Office of Disability
Adjudication and Review’s Electronic Key Workload Indicator reports for FYs 2007 (Page 8) and 2011 (Page 2).




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                       6
                             Figure 2: Initial Allowance Rates for Title II and
                                Title XVI Claimants with a Work History 21




Note:      The United States’ average allowance rate for all Title II and Title XVI disability applications with a work
           history declined from 32 percent in CY 2007 to 31 percent in CY 2011.

Length of Time from Stopping Work to Filing for Disability
In CY 2011, Title II and Title XVI disability claimants with a work history were waiting longer
after stopping work to file for disability than they were waiting in CY 2007. Specifically, in
CY 2007, almost 58 percent of Title II and Title XVI disability applications was filed within
1 year after the claimant stopped working. However, in CY 2011, only 47 percent of Title II and
Title XVI disability applications was filed within 1 year after the claimant stopped working. 22
Further, the percentage of Title II and Title XVI disability applications filed within 1 year after
the claimant stopped working decreased in all 10 States with the highest increases in
unemployment rates from CYs 2007 to 2011 (see Figure 3).




21
     See note 18.
22
  We calculated the percentage of disability applications for claimants with a work history filed within 1 year of
stopping work to filing application using a data extract from SSA’s Disability Management Information System (see
Appendix A). Our analysis is based on the date the application was filed and the date the claimant indicated he/she
last worked.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                              7
       Figure 3: Percentage of Title II and Title XVI Disability Applications for Claimants
        with a Work History Filed Within 1 Year of Stopping Work to Filing Application 23




Note:      The United States’ percent of Title II and Title XVI disability applications filed within 1 year from
           stopping work to filing an application decreased from almost 58 percent in CY 2007 to 47 percent in
           CY 2011.

Recent studies suggest that extensions in available unemployment insurance benefits cause some
claimants to delay their applications for disability benefits. 24 For example, one study concluded
that individuals are less likely to file for Title II disability benefits when they are receiving
extended unemployment insurance benefits. 25 Another study found that unemployed persons age
50 to 65 without access to $5,000 are more likely to apply for Title II disability benefits as their
unemployment insurance benefits are about to expire. 26




23
     See note 22.
24
  In July 2008, special emergency Federal unemployment benefits, known as Emergency Unemployment
Compensation 2008, provided an additional 13 weeks of unemployment benefits. These additional benefits were
authorized as part of the Supplemental Appropriations Act, 2008, Pub. L. No. 110-252, § 4002(b)(1) 122 Stat. 2323,
2354-2355 (2008). Subsequent legislation, the Unemployment Compensation Extension Act of 2008, Pub. L.
No. 110-449, 122 Stat. 5014 (2008), and the Worker, Homeownership, and Business Assistance Act of 2009, Pub. L.
No.111-92, 123 Stat. 2984 (2009), extended the special emergency benefits up to an additional 40 weeks.
25
  Matthew S. Rutledge, Disability Insurance: Does Extending Unemployment Benefits Help? (Center for
Retirement Research at Boston College, Research Brief Number 11-14), November 2011, pgs. 1 and 5.
26
  Alan Krueger and Andreas Mueller, as cited by the Executive Office of the President, Unemployment Insurance
Extensions and Reforms in the American Jobs Act, December 2011, pgs. 9-10.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                       8
Disability Claims Processing Costs
The increase in Title II and Title XVI disability applications caused increases in the costs to
process claims. Specifically, the cost to process Title II and Title XVI disability applications for
claimants with a work history increased more than $26 million, approximately 4 percent, from
$662 million in CY 2007 to $688 million in CY 2011 (see Table 3). Accordingly, the 10 States
with the highest increases in unemployment rates also experienced increased costs in processing
Title II and Title XVI disability claims.

                   Table 3: Costs to Process Title II and Title XVI Disability
             Applications for Claimants with a Work History (Dollars in Millions) 27
                                                2007
                         State                (in 2011            2011          Additional Cost
                                              Dollars)
               Florida                           $39.3             $47.1                 $7.8
               North Carolina                    $23.7             $25.2                 $1.5
               California                        $65.4             $66.6                 $1.2
               Arizona                           $10.8             $11.9                 $1.1
               Colorado                           $7.6              $8.6                 $1.0
               Utah                               $2.8              $3.5                 $0.7
               Alabama                           $15.3             $15.9                 $0.6
               Nevada                             $4.7              $5.3                 $0.6
               Idaho                              $2.8              $3.0                 $0.2
               Hawaii                             $1.9              $2.1                 $0.2
               United States                    $661.8            $688.4               $26.6

Disability Claims Backlogs
The increase in Title II and Title XVI disability applications has increased the backlog for initial
disability claims. At the end of FY 2007, SSA had a pending level of more than 555,000 initial
Title II and Title XVI disability claims. However, the pending level rose to more than




27
  We calculated costs by multiplying the average cost to process a Title II or Title XVI disability claim, according
to SSA’s Cost Analysis System SC3-SUM reports, by the number of Title II and Title XVI applications SSA
received from claimants with a work history. To account for inflation, we converted CY 2007 payment amounts to
constant 2011 dollars using the BLS’ Consumer Price Index Inflation Calculator available at http://data.bls.gov/cgi-
bin/cpicalc.pl. For example, in FY 2007, the average cost to process a disability claim was $325.47. In Utah, we
identified 7,948 disability applications for claimants with a work history in CY 2007 (see Table 2). Therefore, we
determined that the total cost to process these applications was $2,586,836, which is $2,806,379 in constant 2011
dollars.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                       9
759,000 by the end of FY 2011. 28 In addition, the average processing time for an initial Title II
and Title XVI disability claim was 109 days in FY 2011—an increase of 26 days over the
processing time of 83 days in FY 2007. 29

Other Factors Affecting Disability Applications
In addition to increases in unemployment rates, there are other factors that affected the number
of Title II and Title XVI disability applications SSA recently received. These other factors are
not directly related to unemployment and have gradually impacted the number of disability
applications over a span of several years. For example, SSA’s Chief Actuary identified the
baby-boomer generation reaching its disability-prone years and increases in the size of the labor
force as the main “drivers” of program growth for the Title II disability program. 30 In addition,
changes in Federal policy have affected SSA’s disability programs. At the same time,
demographics, health, and types of jobs available in each State can effect variations in disability
application rates. 31 Identifying the effect of these and any other factors on Title II and Title XVI
disability was beyond the scope of this review.

The baby-boomer generation began reaching its disability-prone years in 1996. 32 According to
the CBO, baby boomers caused a sharp rise in the numbers of Title II disability applications and
beneficiaries over the past several years. 33 According to Commissioner Astrue, SSA had
anticipated an increase in Title II disability applications based on baby boomers reaching their
disability-prone years. 34 The CBO study focused on Title II disability applications; however, the


28
  At the end of FY 2012, SSA’s initial claims pending level was 707,700. We obtained initial disability claims
pending levels from SSA’s FY 2012 Performance and Accountability Report, Section 1.2e, p. 65.
29
  In FY 2012, SSA’s average processing time for an initial disability claim was 102 days. We obtained the average
processing times for disability applications from SSA’s FY 2012 Performance and Accountability Report,
Section 1.2a, p. 61 and FY 2007 Performance and Accountability Report, Section 1.1e, p. 57.
30
  The Financing Challenges Facing the Social Security Disability Insurance Program; Hearing before the
H. Committee on Ways and Means, Subcommittee on Social Security, 113th Cong. (2013) (written statement of
Stephen C. Goss, Chief Actuary, SSA), p. 4, March 14, 2013.
31
  Norma B. Coe, Kelly Haverstick, Alicia H. Munnell, and Anthony Webb, What Explains State Variation in SSDI
Application Rates? (Center for Retirement Research at Boston College Working Paper No. 2011-23),
December 2011, p. 1.
32
  The baby-boomer generation consists of individuals born between 1946 and 1964. Therefore, the first baby
boomers reached age 50 in 1996. SSA gives special consideration to claimants age 50 or older in its disability
evaluation process. See 20 C.F.R. §§ 404.1563 and 416.963; SSA, POMS, DI 25015.005 C (effective
March 22, 2011).
33
     CBO, Policy Options for the Social Security Disability Insurance Program, July 2012, p. 7.
34
  The Social Security Administration: Is it Meeting its Responsibilities to Save Taxpayer Dollars and Serve the
Public?: supra note 8, at p. 8.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                      10
baby-boomer generation reaching its disability-prone years most likely contributed to an increase
in the number of Title XVI disability applications.

The CBO also attributes increases in Title II disability applications to the increased size of the
labor force compared to the number of working-age people. Specifically, the CBO cited the
increased participation of women in the labor force. 35 SSA’s Chief Actuary also stated that the
percentage of women insured for Title II disability benefits increased from 50 percent in 1980 to
68 percent in 2010, while there was a slight decrease for men, from 77 percent in 1980 to
74 percent in 2010. 36 Therefore, since there was an overall increase in the percentage of the
population insured for Title II disability benefits, the number of applicants also increased.

According to the CBO, another factor contributing to the increase in Title II disability
applications was the enactment of the Social Security Disability Benefits Reform Act of 1984. 37
This legislation changed some of the criteria used to make a disability determination. 38
According to the CBO, this change led to an expansion in the number of individuals on the Title
II disability rolls for mental or musculoskeletal disorders, which are largely adjudicated using
subjective criteria. 39 While the CBO focused its analysis on Title II disability benefits, the
legislation affected disability programs for both Title II and Title XVI. We found mental and
musculoskeletal disorders were 5 of the 10 primary diagnoses that had the highest percentage
increases in Title II and Title XVI disability applications filed between CYs 2007 and 2011
(see Table 4).




35
     CBO, supra note 33, at pgs. 7, 8.
36
     Goss, supra note 30.
37
     See Pub. L. No. 98-460, 98 Stat. 1794 (1984).
38
     CBO, supra note 33, at p. 8.
39
     Id.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)    11
         Table 4: Primary Diagnoses with the Highest Percentage Increases on Disability
                       Applications for Claimants with a Work History 40
                                                                             Number of
                                                                            Applications          Percentage
          Primary Diagnosis                    Body System
                                                                                                   Increase
                                                                          2007        2011
     Retinal Detachments and
                                      Special Senses and Speech              973       5,966           513
     Defects
     Other and Unspecified
     Arthropathies (Joint             Musculoskeletal                    31,462       98,596           213
     Disorders)
     Malignant Neoplasm of
                                      Malignant Neoplastic
     Gallbladder and                                                         348       1,086           212
                                      Diseases
     Extrahepatic Bile Ducts
     Chronic Infections of the
                                      Respiratory and Skin
     Lung, the Skin, or the                                                  812       2,265           179
                                      Disorders
     Mucous Membranes
     Attention Deficit
                                      Mental Disorders                     3,075       7,265           136
     Hyperactivity Disorder
     Autism and Other
     Pervasive Developmental          Mental Disorders                     1,289       3,030           135
     Disorders
     Glaucoma                         Special Senses and Speech            1,955       4,568           134
     Inflammatory Bowel
                                      Digestive                            3,473       7,572           118
     Disease
     Anxiety Related Disorders        Mental Disorders                   31,585       65,643           108
     Substance Addiction
                                      Mental Disorders                     4,852       9,935           105
     Disorders (Alcohol)

In addition, research has found that demographic, health, and types of jobs available are
characteristics that affect variations in the number of Title II disability applications from State to
State. 41 For example, States with a higher proportion of people who were poor or smoked had
higher Title II disability application rates. 42 However, States with more service-oriented jobs had


40
   Applications with these primary impairments consistently increased between CYs 2007 and 2011. We obtained
the number of primary diagnoses for Title II and Title XVI disability applications from a data extract of SSA’s
Disability Management Information System (see Appendix A). We limited our analysis to primary diagnoses
alleged by claimants with a work history in 1,000 or more applications filed in any given year during CYs 2007
through 2011.
41
     Coe, Haverstick, Munnell, and Webb, supra note 31.
42
     Id. at pgs. 29 and 31.



Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                      12
lower Title II disability application rates. 43 The cited study focused on Title II disability
applications; however, these same factors most likely contributed to an increase in the number of
Title XVI disability applications.

Title II Disability Beneficiaries and Title XVI Recipients
Despite a decrease in allowance rates, the number of Title II disability beneficiaries continued
growing because of the increase in Title II disability applications—increasing 19 percent from
CYs 2007 to 2011, according to SSA reports. 44 Further, the number of Title II disabled worker
beneficiaries (excluding their spouses and children) increased 21 percent from CYs 2007 to 2011
(see Table 5). The number of Title II disabled worker beneficiaries increased in all 10 States
with the highest increases in unemployment rates.

Monthly benefits to all Title II disability beneficiaries also increased 22 percent from CYs 2007
to 2011, 45 while monthly benefits to Title II disabled worker beneficiaries increased 23 percent
during the same period (see Table 5). Accordingly, monthly benefit payments to Title II
disabled worker beneficiaries increased in all 10 States with the highest increases in
unemployment rates.




43
     Id.
44
  According to SSA’s OASDI Beneficiaries by State and County reports, in CY 2007, there were more than
8.70 million Title II disability beneficiaries living in the 50 States and the District of Columbia (see Table 2, p. 2,
November 2008). In CY 2011, there were approximately 10.35 million Title II disability beneficiaries in the
50 States and the District of Columbia (see Table 2, p. 2, May 2012). These figures include all disabled worker
beneficiaries as well as any eligible spouses and children.
45
  We obtained the monthly Title II benefit payment from SSA’s OASDI Beneficiaries by State and County reports
for CYs 2007 and 2011. However, to account for inflation, we converted CY 2007 payment amounts to constant
2011 dollars using the BLS’ Consumer Price Index Inflation Calculator available at http://data.bls.gov/cgi-
bin/cpicalc.pl. For example, in CY 2007, monthly benefit payments to all Title II disability beneficiaries were more
than $7.5 billion, which is approximately $8.2 billion in constant 2011 dollars. In CY 2011, monthly Title II
disability benefit payments were approximately $10 billion.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                              13
     Table 5: Title II Disabled Worker Beneficiaries and Monthly Title II Benefit Payments 46
                                                                      Monthly Benefit Payments to Title II
                               Title II Disabled Worker                 Disabled Worker Beneficiaries
                                     Beneficiaries
                                                                             (Dollars in Millions)
           State
                                                                         2007
                                                     Percentage                                     Percentage
                           2007           2011                         (in 2011        2011
                                                      Increase                                       Increase
                                                                       Dollars)
 Utah                      34,726         44,698           29               $38           $49             29
 Colorado                  80,205        100,000           25               $87          $112             29
 Florida                  418,498        517,600           24             $457           $579             27
 Idaho                     32,867         40,570           23               $35           $44             26
 Alabama                  186,043        225,847           21             $197           $246             25
 Nevada                    49,006         58,995           20               $57           $69             21
 North Carolina           270,824        321,185           19             $291           $355             22
 Hawaii                    19,938         23,221           16               $22           $27             23
 California               593,492        690,007           16             $658           $785             19
 Arizona                  130,036        150,778           16             $147           $174             18
 United States          6,937,804 8,379,922                21           $7,581        $9,331              23

The number of Title XVI recipients aged 64 or younger also continued growing—increasing
13 percent from CYs 2007 to 2011, according to SSA reports. 47 Further, the number of
Title XVI recipients aged 18 to 64 increased 13 percent from CYs 2007 to 2011 (see Table 6).
The number of Title XVI recipients aged 18 to 64 increased in all 10 States with the highest
increases in unemployment rates. 48




46
     Id.
47
  According to SSA’s SSI Recipients by State and County reports, in CY 2007, there were more than 5.34 million
Title XVI disability recipients age 64 or younger in the 50 States and the District of Columbia (see Table 1, p. 1,
May 2008). In CY 2011, there were more than 6.05 million Title XVI disability recipients age 64 or younger in the
50 States and the District of Columbia (see Table 1, p. 1, May 2012).
48
  This analysis included all Title XVI recipients aged 18 to 64, regardless of work history because SSA does not
report the number of recipients aged 18 to 64 who had previously worked.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                       14
Monthly benefits to all Title XVI recipients aged 64 or younger also grew—increasing
11 percent from CYs 2007 to 2011, according to SSA reports. 49 Further, the monthly benefits to
Title XVI recipients aged 18 to 64 increased 10 percent during the same period (see Table 6).
Accordingly, monthly benefit payments to Title XVI recipients aged 18 to 64 increased in 9 of
the 10 States with the highest increases in unemployment rates.

           Table 6: Title XVI Recipients Aged 18 to 64 and Monthly Title XVI Payments 50
                                                                          Monthly Payments to Title XVI
                                    Title XVI Recipients
                                                                           Recipients Aged 18 to 64 51
                                        Aged 18 to 64
                                                                              (Dollars in Millions)
           State
                                                                         2007                       Percentage
                                                      Percentage
                             2007          2011                        (in 2011         2011        Increase or
                                                       Increase
                                                                       Dollars)                     (Decrease)
 Nevada                      19,539        24,333            25             $11           $14             27
 Utah                        15,722        19,298            23              $9           $11             22
 Florida                    205,086       245,422            20           $113           $135             19
 Colorado                    36,680        44,176            20             $21           $25             19
 Idaho                       15,913        19,015            19              $9           $10             11
 North Carolina             119,131       138,172            16             $64           $75             17
 Hawaii                      13,186        15,043            14              $8            $9             13
 Alabama                    103,548       115,595            12             $56           $62             11
 Arizona                     58,263        65,469            12             $32           $37             16
 California                 601,744       622,147             3           $437           $414            (5)
 United States            4,221,920 4,777,010                13          $2,485        $2,744              10




49
  We obtained the monthly Title XVI payments from SSA’s SSI Recipients by State and County reports for
CYs 2007 and 2011. However, to account for inflation, we converted CY 2007 payment amounts to constant 2011
dollars using the BLS’ Consumer Price Index Inflation Calculator available at http://data.bls.gov/cgi-bin/cpicalc.pl.
For example, in CY 2007, monthly payments to all Title XVI disability recipients were more than $2.95 billion,
which is more than $3.20 billion in constant 2011 dollars. In CY 2011, monthly payments to all Title XVI disability
recipients were approximately $3.56 billion.
50
     Id.
51
     Includes Federally-administered State supplemental payments.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                      15
CONCLUSIONS
Since 2007, SSA has seen a higher increase in the number of Title II and Title XVI disability
applications than it expected. However, during these years of increased unemployment and
disability applications, allowance rates decreased on initial Title II and Title XVI disability
applications for claimants with a work history. Despite decreases in initial allowance rates, the
increases in applications caused a rise in the numbers of Title II disabled worker beneficiaries
and Title XVI recipients aged 18 to 64, costs to process Title II and Title XVI applications, and
initial disability claim backlogs. However, factors other than unemployment also contributed to
increases in Title II and Title XVI disability applications, such as the baby-boomer generation
reaching its disability-prone years, increases in the size of the labor force, and changes to Federal
disability policy. Because of these other factors, we could not pinpoint the extent to which
unemployment impacted the rising number of Title II and Title XVI disability applications.

AGENCY COMMENTS
SSA reviewed the draft report but did not provide any comments.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)       16
                                       APPENDICES




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•      Reviewed applicable laws and regulations and pertinent sections of the Program Operations
       Manual System related to Social Security’s disability programs.

•      Researched prior reports by the Office of the Inspector General and Government
       Accountability Office.

•      Reviewed reports and articles regarding unemployment rates and disability applications from
       the Congressional Budget Office, the Social Security Administration, and other popular and
       academic media sources.

•      Obtained a data extract of 15,224,275 initial Title II and Title XVI disability applications
       from the Disability Management Information System for Calendar Years (CY) 2007 through
       2011. 1 We only counted people who filed a concurrent Title II and Title XVI disability claim
       once.

•      Analyzed 10,933,904 disability applications for claimants with indications of prior work. 2
       To meet the objective of our review, we limited our analysis to disability applications for
       claimants who indicated prior work on the applications because we believed these claimants
       would be most affected by changes in unemployment. Specifically, we identified the
       following changes from CYs 2007 to 2011.

                o Increase in the number of applications received.

                o Change in the allowance rates.

                o Increase in the number of Disability Insurance beneficiaries.

                o Change in the percentage of applications received within 1 year of stopping work.

                o Additional costs incurred to process the additional applications.




1
    The data extract only included applications where SSA maintained an electronic disability folder.
2
 We identified claimants with indications of prior work based upon each claimant’s response to question 4C of the
Disability Report – Adult (Form SSA-3368-BK). Specifically, question 4C asked, “When did you stop working?”
Of the approximately 4.3 million claimants without a stop work date, we estimate more than half were for Title II
disabled adult child or Title XVI child benefits and the remaining were applications for Title II or Title XVI
claimants who had never worked or never stopped working.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                   A-1
•   Obtained data from the Department of Labor’s Bureau of Labor Statistics regarding the
    unemployment rates for CYs 2007 through 2011 and identified the 10 States with the highest
    increases in unemployment rates.

The entity reviewed was the Office of Operations. Our work was conducted at the Office of
Audit in Kansas City, Missouri, from December 2012 through February 2013. We determined
that the data used in this report were sufficiently reliable given the review objective and its
intended use. We conducted our review in accordance with the Council of the Inspectors
General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)   A-2
Appendix B – STATE UNEMPLOYMENT RATES, CALENDAR
             YEARS 2007 AND 2011
Between Calendar Years (CY) 2007 and 2011, the average unemployment rate in the United
States increased. Further, the unemployment rate increased in all 50 States and the District of
Columbia (see Table B–1). Idaho had the largest percentage increase in unemployment rates
while North Dakota had the smallest percentage increase.

                               Table B–1: State Unemployment Rates 1
                             CY      CY    Percentage                             CY      CY    Percentage
    State                                                    State
                            2007    2011    Increase                             2007    2011    Increase
    Idaho                    2.9    8.7        200           Tennessee            4.9     9.2        88
    Nevada                   4.6    13.5       193           South Carolina       5.6    10.3        84
    Alabama                  3.4    9.0        165           Pennsylvania         4.3     7.9        84
    Florida                  4.0    10.5       163           Oregon               5.2     9.5        83
    Arizona                  3.8    9.5        150           New York             4.5     8.2        82
    Hawaii                   2.7    6.7        148           Texas                4.4     7.9        80
    Utah                     2.7    6.7        148           Mississippi          6.2    10.7        73
    Colorado                 3.7    8.3        124           Kentucky             5.6     9.5        70
    North Carolina           4.7    10.5       123           Missouri             5.1     8.6        69
    California               5.3    11.7       121           Massachusetts        4.5     7.4        64
    New Mexico               3.4    7.4        118           Kansas               4.1     6.7        63
    New Jersey               4.3    9.3        116           South Dakota         2.9     4.7        62
    Wyoming                  2.8    6.0        114           Maine                4.7     7.5        60
    Rhode Island             5.3    11.3       113           Wisconsin            4.8     7.5        56
    Delaware                 3.5    7.3        109           Iowa                 3.8     5.9        55
    Georgia                  4.7    9.8        109           New Hampshire        3.5     5.4        54
    Virginia                 3.0    6.2        107           Arkansas             5.2     8.0        54
    Montana                  3.3    6.8        106           Ohio                 5.6     8.6        54
    Washington               4.6    9.2        100           Nebraska             2.9     4.4        52
    Indiana                  4.6    9.0         96           Oklahoma             4.1     6.2        51
    Maryland                 3.6    7.0         94           Michigan             7.1    10.3        45
    Illinois                 5.1    9.8         92           Vermont              3.9     5.6        44
    Louisiana                3.8    7.3         92           Minnesota            4.6     6.4        39
    Connecticut              4.6    8.8         91           Alaska               6.1     7.6        25
    West Virginia            4.2    8.0         90           North Dakota         3.1     3.5        13
    District of Columbia     5.4    10.2        89           United States        4.6     8.9        93




1
 We obtained unemployment rates from the Bureau of Labor Statistics (BLS) for CY 2007 in June 2011 and for
CY 2011 in May 2012. As the BLS obtains more employment data, it updates and changes its published
unemployment rates. Therefore, the rates in this table may not match the current rates published by the BLS.




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                   B-1
Appendix C – DISABILITY APPLICATIONS FOR CLAIMANTS
             WITH A WORK HISTORY, CALENDAR
             YEARS 2007 AND 2011
Between Calendar Years (CY) 2007 and 2011, the number of Title II and Title XVI disability
applications for claimants with a work history increased nationally and in all 50 States and the
District of Columbia (see Table C–1). Utah had the largest percentage increase in disability
applications while North Dakota had the smallest percentage increase.

    Table C–1: Title II and Title XVI Disability Applications for Claimaints with a Work
                                          History 1
                    CY         CY       Percentage                                                        Percentage
State                                                    State                   CY 2007     CY 2011
                   2007       2011       Increase                                                          Increase
Utah                7,948     12,121        53           New Jersey                41,288       51,550        25
Florida           111,220    162,675        46           Rhode Island               6,954        8,640        24
Maryland           31,847     45,826        44           California               185,314      230,105        24
Georgia            61,983     87,934        42           Michigan                  77,443       94,858        22
Colorado           21,535     29,822        38           Vermont                    3,727        4,565        22
Nevada             13,317     18,190        37           Pennsylvania              90,303      110,510        22
Hawaii              5,322      7,257        36           South Dakota               3,673        4,488        22
Oregon             21,986     29,797        36           New Mexico                13,928       16,898        21
Arizona            30,589     41,164        35           Minnesota                 24,982       30,239        21
New Hampshire       7,184      9,659        34           Mississippi               30,539       36,916        21
Washington         35,630     47,872        34           District of Columbia       5,212        6,289        21
Wyoming             2,360      3,151        34           New York                 106,420      127,818        20
South Carolina     34,289     45,726        33           Alaska                     3,673        4,402        20
Idaho               7,984     10,496        31           Maine                      9,650       11,564        20
North Carolina     67,093     87,132        30           Iowa                      15,236       18,247        20
Texas             134,263    174,166        30           Illinois                  66,407       79,278        19
Indiana            42,929     55,494        29           Kansas                    15,802       18,842        19
Delaware            5,375      6,946        29           Arkansas                  27,884       33,087        19
Tennessee          51,963     66,570        28           Ohio                      86,879      102,750        18
Louisiana          37,088     47,380        28           Kentucky                  43,951       51,942        18
Montana             5,189      6,618        28           Massachusetts             38,502       44,646        16
Virginia           41,173     52,460        27           Nebraska                   8,716       10,042        15
Alabama            43,466     54,860        26           Connecticut               18,317       20,772        13
Wisconsin          30,687     38,671        26           North Dakota               2,578        2,916        13
Oklahoma           27,807     34,906        26           West Virginia             20,306       21,600        6
Missouri           46,493     58,345        25           United States          1,874,404    2,378,202        27




1
 We obtained the number of disability applications for claimants with a work history from a data extract of the
Social Security Administration’s Disability Management Information System (see Appendix A).




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)                      C-1
Appendix D – AGENCY COMMENTS

June 18, 2013

Subject: Audit No. 22013013 - OIG Draft Report, "Impact of Increases in State Unemployment
Rates on the Social Security Administration's Disability Programs"

Steve,

Thank you for the opportunity to review the subject draft report. The report did not contain any
recommendations. We have no comments to report.

If you have any questions, please let me know.

Tina M. Waddell




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)   D-1
Appendix E – MAJOR CONTRIBUTORS
Mark Bailey, Director, Kansas City Audit Division

Tonya Eickman, Audit Manager

Jesse Card, Auditor

Joseph Cross, IT Specialist




Impact of Increases in State Unemployment Rates on SSA’s Disability Programs (A-07-12-11209)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
